Case 4:16-cr-00523-DC Document 166 Filed 05/07/20 Page i or ±u

/aPPLHD 0( A'
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
PECOS DIVISION

JEREMIAH YBARRA,
Movant,
v.

)
)
)
)
)
)

CAUSE NO. P-16-CR-523

UNITED STATES OF AMERICA,
Respondent. )

GOVERNMENT’S ORDERED ADDENDUM TO ITS RESPONSE TO
MOVANT’S MOTION
TO VACATE. SET ASIDE OR CORRECT SENTENCE
The United States Attorney for the Western District of Texas provides this
addendum to its original response (Docket Entry #146) to the Movant’s, hereinafter
Defendant, JEREMIAH YBARRA’S, Motion to Vacate, Set Aside, or Correct Sentence,
pursuant to Title 28, United States Code, Section 2255. (Docket Entry #129)
This Court’s current order has directed the Government to address the Defendant s
due process claim more thoroughly, as well as, obtain affidavits from defense counsel,
which we failed to do so initially. (Docket Entry #163)
The United States requests, based on its initial response and this addendum, that the
Court deny the Defendant's motion in its entirety.

i

Case 4:16-cr-00523-DC

Document 166 Filed 05/07/2U page a ui

A
T. THE ISSUES
The two issues to be addressed are: Was the Defendant’s Due Process Rights
violated by the Court in preventing him from presenting an entrapment defense (Docket
Entry #129-1, at 17, Ground Seven); and was the Defendant a victim of ineffective
assistance of counsel (Docket Entry #129-1, at 12, Ground Foui).

IT. ANALYSIS
Due Process:

Per Ground Seven of the Defendant’s instant motion he claims; the District Judge
did not allow any evidence to be shown the jury of how he (the Defendant) was entiapt
(sic).” (Docket Entry #129, page 17, Ground Seven) (Emphasis added). The Defendant
also asserts that the Court abused its discretion preventing the Defendant to present
evidence showing he was not predisposed to commit the crime. Id at 18. The Defendant
alleges that he would show that the UC continuously harassed him and he refused the
offers, had the Court allowed him. Id at 17.
He follows this assertion by stating he has evidence showing that he never
committed the crime. Id at 18. The Defendant does not provide this Court the evidence
he would have presented to substantiate his claim.
The Defendant also, going a bit fax afield, raises other allegations that do not fall
under the Court’s alleged violation of his due process rights.

Case 4:16-cr-00523-DC

Document 166

Filed 05/0//2U

e-age e

ui xu

appemdix a
The Defendant contends that the Government’s action was outrageous. Id at 19.
It is not clear by the Defendant’s brief how tine Government’s conduct was outrageous
The Defendant declares that he should not have been prosecuted because others
were neither charged nor convicted of this crime. He takes the position that his trial
counsel was ineffective for not arguing this point.
The Defendant is adamant that he is not guilty of the offense because the
Government failed to show he had “actual possession” of the drugs. Id at 20. The
Defendant, bootstrapping this argument, then turns on his attorney and alleges she was
ineffective for not arguing this fact. Id.
The Defendant’s due process claim should be denied for three reasons:
First: the issue of a due process violation and the other sub issues, except the IAC
claim, are not cognizable under Title 28, U.S.C. §2255.
S econd: the issue of entrapment was extensively reviewed by the 5111 Circuit,
which upheld the Defendant’s conviction. They confirmed, “he was not entrapped.”
(Docket Entry #125, at 4). The ruling of the 5th Circuit bars the Defendant from raising it
in this instant motion.
Finally, and for sake of argument, if the issue of a due process violation is
appropriately before this Court, the Defendant has failed to show how the Court infringed
upon his due process rights in light of the trial record. Furthermore, the Defendant does
not provide what evidence he wanted to present that the Court barred him from
presenting.

Case 4:16-cr-00523-DC Document 166

Filed Ob/(WU i-aye ^ u.

The 5th Circuit’s judgement and mandate on the Defendant’s appeal succinctly
outlines the evidence that the Defendant presented at trial to buttress his claim of
entrapment. Id. Briefly, that Court recognized that the Defendant claimed he was an
“unwary innocent.” The appellate court pointed to the evidence on record where the
Defendant introduced evidence asserting his innocence that he did not benefit financially
for his actions, he resisted the efforts of the Cl and UC to participate, but due to his
addiction, he was susceptible to their haranguing. Id at 2. The Defendant also claimed
that since he did not possess the drugs, he could not be liable for the offense, as well.
The Defendant’s accusation that the Com! did not allow the Defendant to
introduce any evidence of entrapment (Docket Entry #129-1, page 17) and the Court
abused its discretion in so doing, Id at 18, is refuted by the tiial record.
Defense attorney Smith elicited from the undercover agent, TFO Javier
Bustamante, to admit that an informant provided intelligence about the Defendant, which
led to an introduction between the two. (Docket Entry #117, at 47-49). Bustamante
admitted that the woman in the car was the one who would receive the money and was
the supplier for the drug transaction. Id at 53. Smith also obtained from the case agent,
SA Ruckman, that informants are motivated for various reasons to ensnare others in
criminal conduct, such as the Defendant, for the benefit of the informant. Id at 64.
Ruckman also testified that they tried to make more purchases from the Defendant, but he
refused. Id at 70.

Case 4:16-cr-00523-DC Document 166 Filed Ub/u//zu rdye

U Ui J-U

APPENDIX, A
Smith then established that her client, the Defendant, was a drug addict, through
the Defendant’s supervisor}7 probation officer, Julio Estrada. Estiada testified that the
Defendant has had drug issues1 and had gone to treatment. This treatment led to some
success in staying clean from November 2015 to October 2016. Id at 74. Estrada stated
that the Defendant is a drug addict. Id at 79.
Smith effectively laid out the framework for an entrapment defense prior to the
Defendant taking the stand. The problem Smith had were twofold; the Defendant s
criminal past and the Defendant being his worst witness for the entrapment defense.
The Defendant testified indicating he has been an addict since he was 15. Id at 85.
He stated he spent three months at Lifetime (a drug rehabilitation center) followed by
residence at a sober living location, Id at 84. The Defendant stated the object of his
rehabilitation was to hold each other accountable, like making sure they go to AA
meetings. Id.
The Defendant speaks of how he was encountered by the person who he believes
was the informant. He paints a picture that this informant, a person he had not seen m
years, approached him at church.
the Defendant.
imme

Id at 85-89. This informant was a childhood friend of

The Defendant considered him a brother. Id at 85-89, 97. This brothei

diately asked the Defendant a favor to set up a drug deal. The Defendant responded

■ The Defendant was previously convicted in this Court for drug distribution in cause number P'-10-CR-lOO^There
the Defendant pled, cooperated, and testified against a co-defendant, was sentenced, to include a term of sup
“^rltSid'nof^e „ positive on a urinalysis d„H„g the tune-period. Note th>, die
incident in question occurred on July 29, 2016, a time the Defendant was sober.
5

Case 4:16-cr-00523-DC

Document 166 Filed 05/07/2U page o ui

XU

APPEND!t A
you “try your best not to say no.” Id at 91. Therefore, the Defendant agreed to broker a
drug deal for his “brother.”
The Defendant expressed that he did not take possession of the drugs and got no
money out of the deal. Id at 92. However, the Defendant did admit three times that he
put die buyer and seller together. Id at 92, 100, and 106. However, the Defendant
expressed but for this childhood friend he would have stayed clean and sober3 . Id at 98.
The Defendant advised the jury that he believed that since he did not touch the drugs that
he was not committing a crime.4 Id at 99.
The record is replete showing that this Court allowed the Defense to introduce
evidence of entrapment, There is no information to the contrary. The Court even
provided an entrapment jury instruction. Id at 141.
Therefore, the Defendant’s claim of a due process violation is unfounded.
Yet, the Defendant raises other sub issues under the umbrella of a due process
violation.
Outi-ageous conduct by the Government
The Defendant’s claim is a bit convoluted. Having an informant ask the
Defendant to set up a drug deal, is outrageous how? It is difficult to respond to this

3 At the time

of this incident, and the time the Defendant was dealing with the UC, the Defendant was clean and

P-lO-CR-lOO where the co-defendant did not touch the dmgs in that case. The co-dcfendant. as esnfied to by 1
Defendant, assisted the drug deal by picking the Defendant up to deliver the drugs
f^nof need ‘a^al
the Defendant, who wae actually casing the dntgs. This Defendant ts welaware thatyou do
possession” of the drugs to be convicted. He helped convict someone who did not ha\ e actu p

Case 4:16-cr-00523-DC Document 166 Filed 05/07/20 Page / 01 ru

APPEHfclX K
allegation without clarification of how the Government’s conduct, in tins particular case,
reached the level of outrageousness.
Others involved were not charged or convicted and not presented to the jury.
The conduct and status of others who may or may not have been involved was not
presented to the jury for consideration, is time. In fact, Smith could not make such
argument in light of the standard jury instruction; the jury is advised not to consider the
guilt or innocence of others who may have been involved, Id at 136.5 Smith arguing this
would be unethical.
. The Government did not prove the Defendant had actual possession of the drugs
and Smith was ineffective for not arguing that point to the jury.
Such an argument is frivolous. You have to ask yourself whether the Defendant s
claim is genuine in light of footnote four above. Nonetheless, Smith was keenly aware
that the pattern jury instructions would make such an argument ridiculous. They speak of
both actual and constructive possession. In fact, this Court gave such instruction. Id at
140. Whether this Defendant did or did not have “actual possession” does not exonerate
him from liability for this offense under the constructive possession theory.

5 To speak of the selective prosecution claim the Defendant raises in Ground Five of his motion (Docket Entry #1291, at 14), attached to this response is an affidavit from the prosecutor on the case, Monty Kimball, who has since
retired.

Case 4:16-cr-00523-DC Document 166 Filed 05/07/2U Page » ot ru

APPENDS A
Ineffective Assistance of Counsel Claims
It is necessary to point out the obvious. This Defendant went through thr ee
attorneys. Each time the facts and law did not go in his favor, he sought new courtappointed counsel, and now claims they were each ineffective.
Attorney Louis Correa refused to provide an affidavit unless the Court ordered
one.

The Government did not pursue a court order requiring an affidavit from Correa

because the evidence and the law clearly indicate he was effective.
Louis Correa:
The Defendant states Correa was ineffective for not arguing and seeking the
dismissal of the complaint at the time of the preliminary hearing, This Court signed off
on the complaint. At the prelim hearing, Correa challenged the evidence and the Court
ruled that the Government has shown the necessary probable cause to get the case before
the grand jury. (Docket Entry #10). Furthermore, as addressed in our initial response,
defects, if any, in the complaint were cured when the grand jury indicted the Defendant.
(See Docket Entry #146, at 6-8, Government’s initial response).
Mary Ellen “Mimi ” Smith and Damian Castillo:
Attached are their affidavits addressing the Defendant’s claims of ineffective
assistance of counsel.

Case 4:16-cr-00523-DC

Document 166 Hlea Ub/u//zu

r'ctyc c?

lji

ju'-/

APPtlDiX A
m. CONCLUSION
Based on the Government’s initial response and addendum, the Defendant s
instant motion should be denied.

Respectfully submitted,
JOHN F. BASH
UNITED STATES ATTORNEY
By:
Ixancs 7- MiHex.* fe.
JAMES J. MILLER, JRAssistant U.S. Attorney
2500 North Highway 118, Suite A200
Alpine, Texas 79830

9

Case 4:16-cr-00523-DC Document 166 Filed Ob/u/ttu rage ru u, iu

APPtMDiH. h
CERTIFICATE OF SERVICE
I hereby certify that on the 7th day of May 2020, a true and correct copy of the
foregoing instrument was electronically filed with the Clerk of Court using tire CM/laCr
System. In addition, a copy that will be mailed via certified on Hie same day to the
Defendant who is a non CM/ECF participant, at the following address.
JEREMIAH YBARRA
Fed. Reg. No. 55024-280
FCI Big Spring
1900 Simler Avenue
Big Spring, Texas 79720

/S/
JAMES J. MILLER, JR.
Assistant U.S. Attorney

10

Case 4:16-cr-00523-DC Document 166-1 Filed 05/07/20

Page 1 or z

APfaw* B
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
PECOS DIVISION
UNITED STATES OF AMERICA,
Plaintiff,

)(
)(
)(

)(

v.
JEREMIAH YBARRA,
Defendant.

)(
)(

4:19-CV-6 DC
4:16-CR-523

X

AFFIDAVIT OF MONTY KIMBALL^
TN REPONSE TO 2255 MOTION
Before me, the undersigned notary, Monty Kimball, personally appeared and stated under oath as
follows:
I. My name is Monty Kimball. I am above 18 years of age and I am competent to make this
affidavit. The facts contained in this affidavit are within my personal knowledge and are true and
correct.
2.I was the Assistant United States Attorney that prosecuted the defendant, Jenmiah Ybarra
(“Ybarra”), in

the above styled and numbered cause. I understand Ybarra is making claims that

certain actions I took in the course of the prosecution were improper or unconstitutional.
3.1 read Ybarra’s 2255 motion and it appears he asserts two charges related to my handling of
his prosecution: (1) I knew others were involved in distributing the controlled substances but
failed to investigate why the others were not arrested; and (2) I interrupted a meeting between
Ybarra and his counsel and threatened Ybarra with filing an enhancement if he went to trial.
4. Apparently, Ybarra bases his first allegation on the fact that he was the only defendant in his
indictment. That fact does not support his allegation that others were not prosecuted. In fact,
several targets of the investigation were arrested, indicted and convicted, either in Federal court

Case 4:16-cr-00523-DC Document 166-1 Filed 0b/U//2u

appen\du

page ^ ui ^

£>

or State court. Others were identified as transporting Ybarra to the site where he sold controlled
substances to an uncover agent of the Drug Enforcement Administration. However, the
government did not havesufificient evidence on the element of knowledge to arrest these drivers,
especially since Ybarra never cooperated. The government also structured its arrests and
prosecutions with an eye bn protecting sources and seeking cooperation from co-conspirators.
.Therefore, YbarraY first allegation that 1 did not “investigate” why DEA did not anrest others
who were involved in the crime is simply inaccurate.
5.1 did inform Ybarra, through his attorney and through the court that I intended to file an
enhancement information if Ybarra went to trial. The enhancement information had the effect of
raising the mandatory minimum term of imprisonment from 5 years to 10 years, among other
things. .1 did not interrupt a meeting between Ybarra and his defense counsel to threaten him as
he alleges. During a status hearing before then Magistrate Judge Counts, the court inquired
regarding the status of any plea negotiations. I informed Judge Counts that I intended to file an
enhancement before trial and Judge Counts admonished the defendant on the consequences of
continuing to trial. The defendant chose trial and lost. No one attempted to deter him from
exercising his right to a jury trial. The court, his counsel and I simply wanted him to know the
risks.
6, Ybarra mentions that witnesses that could show his innocence were not called. I do not know
which witnesses he is alluding to. Ybarra also references grand jury misconduct. I did not present
the case to the grand jury.

Monty Kimball
Signed under oath before me on April 2> 0 , 2020.

LORI FRANCO
-^lir^=NOtarV Public'
State °t Texas
Comm. Expires 01-77-2021
Nolary ID 3306657
i

Case 4:16-cr-00523-DC Document 166-2 Filed 05/07/20 Page 1 ot 5

^\ppIE.f\{P0v ^
affidavit
State of Texas
• County of Brewster
Mary Ellen Smith, of lawful age, being first duly sworn upon her oath, affirms the
following:
My name is Mary Ellen Smith.
1. I am an attorney, licensed in the State of Texas, State Bar number
00785002. I am admitted to practice law in the Western District of Texas
and in the Fifth Circuit Court of Appeals.
2. I represented Jeremiah Ybarra, from the date of my appointment, through
trial, and verdict. At Mr. Ybarra's request, my representation was
terminated before sentencing, and new counsel was appointed, Mi. Damien
Castillo.
3. I have attached, as an exhibit, the CJA-20 which has a detailed accounting
of the work performed for Mr. Ybarra. The details were noted
contemporaneously, with the tasks performed.

Issues Raised by Case 4:16-CR-00523 -DC Document 129-1 .
Page 13 Asserts that I, as Defense Counsel was not allowed to raise evidence to support
the defenses of Entrapment and Entrapment by Estoppel.
I was allowed to present evidence to support the Defense of Entrapment. One, Mr.
Ybarra testified to the fact that he was asked by a friend to put these “buyers” together
with drugs to sell to truck drivers. DEA agent Ruckman testified frD the facUhat Mi.
Ybarra had declined the invitation to find cocaine and meth for the buyers .
We raised the evidence of entrapment sufficiently to obtained an Jury Instruction on
entipament.
Mr. Ybarra's testimony weakened the defense of Entrapment. During many client
conferences (Please reference attorney's CJA-20 time sheets) with Mr. Ybana, he
described being pressured by a childhood friend to allow a meth dealer to contact i.
Ybarra to arrange for the meth seller to acquire meth to sell to truckers. On the witness
stand in his own defense, Mr. Ybarra did not describe this sequence of events, but rather,
that just thought it was a good idea.
Page 15 Failure to object to the Court's exclusion of evidence. Or to the Court s

Case 4:16-cr-00523-DC Document 166-2 Filed 05/07/20 Page 2 of 5

A

tLH D) K Crefusal to exclude evidence. .1 don't know what trial court rulings Mi. Ybana lefeis to

Page 16. The evidence of possession with intent to distribute tne meth included,
undercover police witnesses, additione drugs in his hand, to constitute possession, m
hopes of avoidinal DEAwitnesses who were on the scene, and Mr. Ybarras own
testimony.
Mr' Ybarra endeavored to avoid physically handling the methamph^am^
that he had to have the drugs in his hand, to constitute possession,
attorney had given Mr. Ybarra copies of the applicable law of posses
sion. I reiterated the applicable law.
.
Law enforcement witnesses and Mr. Ybarra testified that he put together the meth sale.
arra new a e
He arranged to have meth brought to his buyers, who, as far as Mr.
time were acquiring meth through him in order to sell it to truckers^ [ uMJrs re ^lS L°
Task Force Officers who set up the sting, whom Mr. Ybarra believed to be buyers.]
These events were described in texts, recorded phone calls, personal conversations
(recorded), and Mr. Ybarra's testimony.
Paae 15. Mr. Ybarra and I invited AUSA Monty Kimball to meet with Mr. Ybarra, o
re-convey the government's offer. This was by informed consent of Mr.
arra.
r.
Ybarra did not say anything to Mr. Kimball. Mr. Kimball was fairly aggressive m is
exhortation that he was holding open the plea offer without enhancement. The reseveral acceptan^
conveyance of the offer was to let Mr. Ybarra know that, despite
unenhanced
charge. 1
deadlines having passed, the government was still offering an
consulted extensively with Mr. Ybarra about having Mr. Kimball meet with us.
Evidence of Intent to Distribute. Mr. Ybarra himself testified to his actions
Page 16.
which included distribution of the drugs. Our defense was an affirmative defense,
acknowledging the drug sale, while asserting the defense of Entrapment.
Mr. Ybarra gathered the methamphetamine to be given to the [TEO] Buyers, and Ybana
was physically present for the exchange. He physically facilitate t e exc ange o
™gT^TdleZ"Howed evidence in support of the Entrapment Defense. I was
allowed to bring it up in opening statement, argue it m closing, and call both Mr. ^

i.a

to the stand, as well as Mr. Ybarra’s probation officer.
A witness whom Mr. Ybarra believed would support his claim of pressure an^
when interviewed, told me, quite vehemently, that there was no duress, no entrap
•
and only voluntary act.ons of Mr. Ybarra. This was Mr. Ybarra's counselor When ,
interviewed her about testifying to Mr. Ybarra's rehabilitauon, in t e con ex

Case 4:16-cr-00523-DC

Document lbb-z

Hiea uo/u/^u

' APPENDS C
entrapment defense, she told me that Mr. Ybarra acted voluntarily and that he is playinto
you [me]”. I decided not to call her as a witness because she adamantly disbelieved
the notion of Mr. Ybarra having been persuaded, unduly, by the Task Force or by a
childhood friend of Ybarra's, who first approached Ybarra about helping some guys get
meth to sell to truckers.
In Ms. Mata’s place, I called Mr. Ybarra's probation officer, who gave very supportive,
detailed, documentation of Mr. Ybarra's successful behavior on probation.
Pg. 18. The trial Judge allowed me to put on evidence of entrapment, sufficient to
obtain a Jury instruction on entrapment. Without evidence to raise the defense o
entrapment, I could not have obtained the Jury instruction. This was entrapment by
surrogate, about which I conducted immense legal research.
Mr. Ybarra and I spent many hours talking about how the childhood friend had played
on childhood loyalties, when asking Mr. Ybarra to talk with the Buyers looking for a
meth supply, who turned out to be Task Force Officers. In client conferences, we
delved into the special pull of childhood loyalties that propelled Mr. Ybarra to launch on
this several month effort to help these men get methampthetamme. This special pull
was to be the heart and soul of Mr. Ybarra's testimony. However, Mr. Ybarra s testimony
about his reasons for agreeing to find drugs for the Buyers was devastating to his
defense. He did not tell the jury about the childhood ties, the emotional pressure
exerted by his friend. He answered vaguely about his reasons for trying to facilitate a
me th (and cocaine) sale. His testimony undennined the viability of his defense of
Entrapment.
Page 19' The young woman who brought the methamphetamine to the sale point was
CeceCrespin. There was no proof that she was an informant nor a cooperating witness.
She was not arrested, but neither was Mr. Ybarra arrested at the scene of this
methamphetamine sale. In fact, Mr. Ybarra continued to try' to connect the Buyers with
Methamphetamine. Had Crespin been working as a cooperating witness or confidential
informant, the Government would have had a duty to reveal this. I filed t re appropiatp
disco veiy motions to urge this duty. I investigated the whereabouts of Ms Crespin and
obtained a subpoena for her to testify. I hired a private process server, and neither oi us
could locate Ms. Crespin to serve the subpoena. She could not have been forced to
testify to her involvement with the drug sale.
Mr. Ybama believed that there was ample evidence of the communications and uigings
of his childhood friend on Mr. Ybarra's cell phone. I moved the Court to allow me to
hire an expert to make sure that I was getting everything on Mr. Ybarra's cell phone t at
was in the custody of the DEA. I received authorization, and the expert drove from
Dallas to Alpine to dump and copy the phone. There were no calls or texts on that

Case 4:16-cr-00523-DC Document 166-2 Filed 05/07/20 Page 4 orb

APPEHBil C.
phone from or to the childhood friend. Whatever phone held those texts and calls was
not in the custody of the DEA nor of Mr. Ybarra. Mr. Ybana had given or so t e
phone before being arrested.
The childhood friend was not a participant in the crime. His involvement ended when
he persuaded Mr. Ybaira to take the calls from the Buyers, or to call the uyers . Th e
childhood friend had nothing else to do with Ybarra, nor with the events that unfolded
as Ybarra sought to obtain methamphetamme and cocaine for the Buyers over a period
There were no communications between the childhood friend and Ybana on
of months,
the latter's cell phone.
Page 20: Again, Mr. Ybarra misaprehends the legal definition of Possession.
Page 20: There was one police report. I don't usually submit police reports to the jury.
They hanu the defense.
Page 21. Grand Jury Transcripts. There were no Grand Jury Transcripts . I told Mr.
Ybarra this According to AUSA Monty Kimball, and e testified, after qualifying as an
expert witness, to the lab work and the findings, include quantity and chemical analysis
(purity). Part of the affirmative defense of Entrapmfairly regular practice m this
Division, the Grand Jury testimony was not recorded.
Chain of Custody: The chain of custody was properly demonstrated and atteste to.
The chemist who handled the methampthetamine testified, after qualifying as an expert
witness, to the lab work and the findings, include quantity and chemical analysis
(purity).
Grand Jury Transcript. There was no transcript nor recording of the Grand Juiy
testimony. This is fairly regular practice in this Division, that the Grand Jury testimony
not be recorded.

FURTHER AFFIANT SAYETH NOT:
Mary EllerfSmith

Case 4:16-cr~00523-DC

Document 166-2

Filed 05/07/20

Page 5 orb

APPEHWi C.
Subscribed and sworn to or affirmed before me on this 7" day of May, 2020

Signature of Notary Public
LORI FRANCO
Notary Public, State of Texas
Comm. Expires 01-17-2021

I
»«i U^^K.1.

Notary ID 3308667
WU.P '1IJI«UP

Case 4:16-cr-00523-DC

Document 166-4 Filed Ub/U/i^u

APP'EU&nt

X U1 <-f

d

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
PECOS DIVISION
UNITED STATES OF AMERICA

V.
JEREMIAH YBARRA

8
§
§
8
§

4:I9-CV-6-X)C
4:16-CR-523

§
§

ATTORNEY AFFIDAVIT IN RESPONSE TO DEFENDANT’S 2255 MOTION
Damian Castillo appeared in person before me today and stated under oath:
"My name is Damian Castillo. I am
competent to

above the age of eighteen years, and I am fully

make this affidavit. The facts stated in this affidavit are within my personal

knowledge and are true and correct.
‘The Defendant in this cause is Jeremiah Ybarra.
"On June 28, 2017 I was court-appointed to represent this Defendant in the abovecaptioned case. I was appointed after the Defendant had already been convicted by ajury of count
one of his indictment.

On September 8, 2017, the Defendant was sentenced by the district court

to 120 months imprisonment. At the Defendant’s request at the sentencing hearing, I remained as
Defendant's counsel for appeal. (ROA.334). In my discussions with the Defendant, the Defendant
understood that it would be my responsibility to review the records on appeal, review the caselaw
and determine the best point or points for appeal. The Defendant understood and agreed with my
role in his appeal.
“In my preparation of the appellant’s brief I reviewed all transcripts, all pleadings, and
other relevant proceedings in this case. Furthermore, I researched and leviewed caselaw
multiple points of appeal. After a substantial review and research of the relevant caselaw on all

Case 4:16-cr-00523-DC Document lbb-4 Hieouu/u//zu rayc

Z. Ul “r

Append fit b
potential issues., we decided to appeal the point of whether sufficient evidence existed to show that
the Government agents induced the criminal activity alleged in the indictment and whether the
Defendant had a lack of predisposition to engage in the criminal conduct.
“The Defendant first alleges in his motion that I failed to address the following issue on
appeal: ‘‘the testimonies from agents at trial should not have been used to come upon probable
cause to arrest. The testimonies that were made by the agents in court for the arrest cannot be used
as testimonial evidence that it took place to cure the Affiant’s affidavit for the lacking
information.” 1 disagree with the Defendant’s contentions. During the trial-level proceedings and
prior to his trial, the Defendant did not file any pretrial motions alleging that agent’s statements
should not be introduced at trial nor that they were legally insufficient in any way. This argument
by the Defendant is meritless and would have been frivolous on his direct appeal.
“The Defendant also alleges in his motion that I failed to address the following issues on
appeal: “(1) Failure to investigate a factual defense; (2) failing to cross examine a witness, (3)
Failure to impeach government witnesses; (4) Failure to file motions on behalf of defense; <5)
failing to object to the discoveiy issues; (6) failing to subpoena witnesses, (7) failing to object to
the confrontation clause.” I disagree with the Defendant’s contention. The Defendant did not file
any pretrial motions regarding these issues prior to his trial. Furthermore,-these issues concern the
ineffectiveness of his trial-level attorney and were not issues be addressed on direct appeal.
“The Defendant next alleges in his motion that I failed to address the following issue on
appeal: Selective prosecution and equal protection issues. Specifically, that the government
singled Mr. Ybarra out for prosecution knowing that other’s were involved in the alleged incident.”
Again, I disagree with this allegation. There was no factual nor legal basis to appeal selective
prosecution and equal protection. There were no pretrial motions addressing these issues. There

Case 4:16-cr-00523-DC

Document 166-4 Filed 05/07/20

Page 4 or 4

APPEND T
were also no facts at trial that would have warranted addressing these issues at trial or on appeal.
This argument by the Defendant is meritless and would have been frivolous on his direct appeal.
;‘The Defendant next alleges that I failed to address the following issue on appeal: there
was no evidence to support the verdict of possession with intent to distribute.’ I disagree with this
allegation. At the juty trial of this case, the primary defense presented by the Defendant was based
granted specific jury
on the Entrapment defense. At trial the Defendant requested and was
instructions to address the entrapment defense. At trial there was overwhelming evidence
presented against the Defendant to prove the elements of the offense. The defense primarily
focused on the entrapment defense. A sufficiency argument was justified on appeal to address the
entrapment issue. After reviewing the entire record, I did brief and properly appeal the point
addressing whether the evidence was insufficient to show that the Defendant was not entrapped.
Caselaw shows that a valid enu-apment defense has two related elements: the government
inducement of the crime, and a lack of predisposition on the part of the defendant to engage in the
criminal conduct. Based on the entire record available for appeal, the Entrapment issue was the
only nonffivolous issue available to address on direct appeal.
’The Defendant alleges that I failed address the following issue on appeal: due process
. violation by not allowing the Defendant to present evidence in his defense and not being allowed
review the evidence before the grand jury. I disagree with this contention as well. After thoroughly
reviewing the record, there were no nonfrivolous issues dealing with due process oi lack of
evidence issues. The defendant again did not address any of these issues thru pretrial motion
hearings nor in the course of trial. These issues would have been frivolous on direct appeal.
"In ground eight Defendant alleges the issue of grand jury errors and US attorney
misconduct was not addressed on appeal. There is no merit to this issue. There was no evidence

Case 4:16-cr-00523-DC Document 166-4 Filed 05/0//2U nage-q- ui

*+

APPEtW/. D
wo uld have been frivolous to
presented at the trial-level concerning these issues. These issues
i
address on direct appeal.
"In ground nine Defendant alleges the issue of a Confrontation clause violation. The
no

merit to this issue as well. There were no pretrial motions nor hearings to address this issue.

There was no evidence presented at the trial-level concerning this issue, These issues would have
been frivolous to address on direct appeal.

Damian Castillo

SfGNED under oath before me on April 27. 2020.

JENNIFER ELAINE D00NAN
Notety ID #12316479
My Commission Expires
March 15.2021

Notary Public, State of Texas

1

